BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in New York
State Rifle & Pistol Association, Inc., Robert Nash,
Brandon Koch v. Keith M. Corlett, in His Official
Capacity as Superintendent of New York State Police,
Richard J. McNally, Jr., in His Official Capacity as
Justice of the New York Supreme Court, Third Judicial
District, and Licensing Officer for Rensselaer County
was sent via Next Day Service to the U.S. Supreme
Court, and e-mail to the following parties listed below,
this 17th day of December, 2020:
Jennifer L. Clark
Andrea Oser
Assistant Solicitor General
New York State Office of the Attorney General
Division of Appeals & Opinions
The Capitol
Albany, NY 12224
(518) 776-2024
Jennifer.Clark@ag.ny.gov
Andrea.Oser@ag.ny.gov
Anisha Dasgupta
New York State Office of the Attorney General
28 Liberty Street
New York, NY 10005
Anisha.Dasgupta@ag.ny.gov
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Paul D. Clement
Counsel of Record
Erin E. Murphy
Kasdin M. Mitchell
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 17, 2020.

Donna J. Wolf (
Becker Gallagher Legal Pu 11shing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

'

\J

